Audit Report 98-08A
Working Capital Fund
Annual Financial Statement
Fiscal Year 1997
Audit Report 98-08A , (3/98)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
MANAGEMENT'S OVERVIEW
INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL
STATEMENTS
INDEPENDENT AUDITOR'S REPORT ON INTERNAL CONTROL
INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE
PRINCIPAL FINANCIAL STATEMENTS
STATEMENT OF FINANCIAL POSITION
STATEMENT OF OPERATIONS AND CHANGES IN
NET POSITION
NOTES TO THE FINANCIAL STATEMENTS
SUPPLEMENTAL FINANCIAL AND MANAGEMENT INFORMATION
REVENUE AND WORKYEARS (FTE) BY WCF
ACTIVITY
SUMMARY OF NON-OPERATING CHANGES
PERFORMANCE MEASUREMENTS
DATA PROCESSING SERVICES
FINANCIAL MANAGEMENT SYSTEMS
PERSONNEL SERVICES DRUG-FREE WORKPLACE
APPENDIX - AUDIT DIVISION ANALYSIS AND SUMMARY OF
ACTIONS NECESSARY TO CLOSE THE REPORT
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
The Working Capital Fund (WCF) is a revolving fund authorized to finance, on a
break-even basis, administrative services provided by the Justice Management Division
(JMD) to Offices, Boards, Divisions and Bureaus of the Department of Justice (DOJ) and to
other Federal agencies. These services are generally commercial functions, such as data
processing, publications, building services, financial operations, personnel services,
telecommunications, property management, and space management. The WCF is also authorized
to receive transfers of unobligated balances of appropriations from other DOJ components.
These transfers may be used to fund the acquisition of capital equipment, develop and
implement law enforcement or litigation related automated data processing systems, and
improve and implement the DOJ's financial management and payroll/personnel systems. The
Congress must be notified of the DOJ's intention to use these funds.
This audit report contains the Annual Financial Statement of the WCF for the fiscal
year ended September 30, 1997. The audit was performed by Brown & Company, Certified
Public Accountants, and resulted in an unqualified opinion on the FY 1997 statement of
financial position and the related statement of operations and changes in net position.
The independent auditor's report on internal control identified one reportable condition
concerning an unreconciled Treasury account. This issue was previously reported as a
material weakness in the FY 1996 financial statement audit of the WCF (Office of the
Inspector General Report No. 97-30A), but was downgraded this year because management has
initiated corrective action. The WCF previously received an unqualified opinion on its FY
1996 statement of financial position and related FY 1996 statement of operations and
changes in net position (Office of the Inspector General Report No. 97-30A).
Management's Overview
Introduction
The basic principle supporting the establishment of a Working Capital Fund (WCF) is to
consolidate, under one financing arrangement, many common services to obtain economies of
scale and efficiency of operations while avoiding a duplication of effort. This principle
was embraced by Congress for the Department of Justice (DOJ) on January 2, 1975, through
the enactment of the fund (28 U.S.C. § 527). The DOJ WCF provides certain
administrative services where a determination has been made that these services can be
provided more advantageously on a centralized basis. The WCF provides the Department with
the flexibility to effectively obtain and use resources in response to the service demands
of customers both within and outside the Department.
The WCF is a revolving fund authorized to finance the provision of goods and services
through a process that charges customers for the goods and services delivered. The WCF is
operated on a not-for-profit basis. The WCF generates its cash through collections from
customers, rather than appropriations from Congress. Customer billings are based on rates
which are intended to fully recover the actual expenses associated with the services
provided.
Organizational Structure
The WCF has a well established organizational structure. All services are provided by
employees of the Justice Management Division (JMD). With the exception of those employees
located at the Dallas, Texas, data processing facility, all employees are located in the
Washington, D.C. metropolitan area. The services provided, however, are available to all
DOJ locations, worldwide.
The General Manager of the WCF is the Assistant Attorney General for Administration
(AAG/A). The General Manager approves all operating plans and capital budgets of the WCF
Activities; approves rate changes to recoup the cost of goods or services provided;
approves all directives affecting the relationship between the WCF Activities and the
organizations served by them; and approves all major expenditures from the Fund. The
Financial Manager of the WCF is the Deputy Assistant Attorney General, Controller. The
Financial Manager develops and maintains a budget and accounting system; prepares Office
of Management and Budget (OMB) and Congressional budgets; provides financial management
services that include recommendations to the General Manager regarding rate revisions;
prepares external and internal financial reports; provides direction and assistance to the
managers of the WCF Activities in the areas of cost accounting and rate development; and
provides oversight in the development of operating plans and capital budgets.
The AAG/A created and chartered a WCF Customer Advisory Board during Fiscal Year
(FY) 1994 to periodically review WCF operations; address issues related to the management
of the WCF; and serve to enhance the customer services provided by the WCF Activities.
WCF services are directed by WCF Activity Managers in such areas as Data Processing
Services, Financial Management Systems, Human Resource Systems, and Telecommunications
Services. These Activity Managers are responsible for the operation, review, and
management of their respective WCF Activities, and development of financial operating
plans. Duties include day-to-day management of the operations for the WCF Activities;
review of financial reports to determine if income levels are adequate or if rate changes
are to be recommended; and maintenance of data and management systems to support customer
billings. All Activity Managers are required to manage their operations at the lowest
possible cost to their customers.
The WCF is listed in the Treasury Account Symbols and Titles as 15X4526, Working
Capital Fund, Department of Justice. The WCF includes thirteen major service activities.
Brief descriptions of these activities are provided below.
WCF Activities
Data Processing Services (DPS) provides large scale information processing
centers and a broad range of modern Automated Data Processing (ADP) technologies to
support law enforcement, litigation support, and other management systems for Departmental
components and other Federal agencies. The Department operates data processing centers in
Rockville, Maryland, and Dallas, Texas.
Telecommunications Services (TSS) operates a wide range of telecommunications
services for Departmental components, including 24-hour operation of the Department's
Washington metropolitan area telephone system, and voice and data communications services.
Payments to the General Services Administration (GSA) for FTS 2000 services are processed
through this WCF Activity. This WCF Activity is also responsible for the development of
telecommunications policy.
Financial Management Systems (FMS) is responsible for the accounting operation
which supports the Offices, Boards, and Divisions (OBDs), and the U.S. Marshals
Service (USMS). Effective October 1997, the USMS assumed full responsibility for its
financial accounting and operational support. This WCF Activity also includes the
development and implementation of Department-wide financial management policies and
systems to support planning, programming, budgeting, accounting, and other financial
management activities.
Human Resource Systems (HRS) is responsible for the maintenance and enhancement
of the payroll/personnel system functions of the Department. With the exception of the
Federal Bureau of Investigation (FBI), the Department's payroll/personnel services were
converted to the Department of Agriculture's National Finance Center through a
cross-servicing arrangement in FY 1993. The HRS reviews and analyzes proposed system
modifications and alternatives, which involve a variety of managerial and operational
functions of existing and long range designs of the systems application and development.
Asset Forfeiture Management is responsible for the administrative management and
operational functions that were formerly performed by the Executive Office of Asset
Forfeiture. This responsibility includes the operation of a central asset forfeiture
resource center, the management of investments in U.S. Treasury securities, and the
implementation of the Consolidated Asset Tracking System.
Justice Building Services (JBS) provides support for the operation, maintenance,
alteration, repair, and preservation of all equipment and space in the Main Justice
Building.
Mail, Audio-Visual, and Publications Services (MAPS) provides direct
administrative support for mail management; direct support for mail referral and dispatch
services; and oversight of contractual mail delivery services and special messenger
services. MAPS also provides audio visual, publications, and related services for all
Departmental components. This WCF Activity provides direction and monitoring concerning
printing production, and makes recommendations for the proper use and application of all
Departmental publications and visual communications material.
Property Management provides for the purchase, sale, and inventory of new and
refurbished office furniture that is available for purchase by Departmental components. No
personnel or management expenses are charged to this WCF Activity.
Space Management is a clearing account that pays GSA rent and other space
related expenses. Costs are reimbursed on the basis of assigned space and space rates. No
personnel expenses are charged to this WCF Activity.
Library Acquisition Services serves as the primary resource for obtaining
publications for the Department's OBDs. This WCF Activity orders new books and
subscriptions; renews all ongoing subscriptions; monitors the publication budgets for the
components; and distributes monthly status reports. No personnel or management expenses
are charged to this WCF Activity.
Personnel Services provides staffing, position classification, pay
administration, employee-management relations, employee benefits, performance appraisal,
time and attendance, and personnel records maintenance for the OBDs.
Drug-Free Workplace, provides random testing of employees, in designated
positions, and mandatory applicant testing for the OBDs.
Debt Collection Management (DCM) is responsible for implementing the provisions
of the Federal Debt Recovery Act of 1986, which authorizes the Attorney General to
contract with private counsel to help the U.S. Attorneys collect delinquent Federal civil
debts. Since FY 1994, the Attorney General has been authorized to credit to the WCF
up to 3 percent of the Department's total civil cash collections to be used for paying the
costs of "processing and tracking" such litigation (see Note 7). DCM is
responsible for the operation of the Nationwide Central Intake Facility, the private
counsel pilot project, and other projects funded by the 3 percent of the Department's
civil debt collections.
Summary of WCF Financial Activity
In FY 1997, WCF total revenue was $584.1 million, an increase of
7.5 percent over FY 1996. The total revenue is composed of $580.9 million from
services provided, and for financial statement presentation purposes, $3.2 million from an
imputed financing source for pensions and other retirement benefits (see Note 1E) . A
total of 650 workyears were utilized during FY 1997, a decrease of 11 workyears below
the FY 1996 level. A further analysis of these changes is presented as Schedule A,
Revenue and Workyears by WCF Activity, located in the Supplemental Financial and
Management Information section.
As shown in Chart 1 on the next page, the largest single revenue source is the Space
Management Activity, which generated $291.4 million in FY 1997, an increase of
4.1 percent over FY 1996. The next largest revenue source was the TSS Activity
which generated $91.0 million in revenue, an increase of 4.6 percent from
FY 1996. The DPS Activity recorded a 2.2 percent increase in revenue at
$90.9 million. The DCM Activity recorded $44.8 million in revenue during
FY 1997, which is 63.2 percent above FY 1996. The remaining
$66.0 million in revenue came from the other WCF Activities.
Total expenses of $563.0 million were recorded, an increase of 6.2 percent
increase over FY 1996. Of the $563.0 million in expenses incurred, $11.0 million
represents authorized uses of WCF retained earnings pursuant to P.L. 102-140, and
$552.0 million was used in support of normal WCF operations. The primary uses of the
$552.0 million were to pay GSA for space rentals, other space related expenses,
communications, and utilities ($367.4 million), to obtain other contractual services
($91.7 million), to compensate personnel ($41.9 million), and for Supplies,
Materials, Uncapitalized Equipment, Travel, Printing, Depreciation, Cost of Goods Sold,
Future Compensation Benefits Cost (see Note 10), Pension and Other Retirement Benefits
Paid by Other Federal Entities (see Note 11), and Miscellaneous Expenses
($51.0 million). Chart 2 on the next page, displays these figures as
a percentage of each dollar of expense.
Total excess revenues over expenses were $21.1 million for FY 1997, an increase of
60.4 percent over FY 1996. Most of the increase is attributable to DCM, which experienced
a 63.2 percent increase in revenue and a 32.5 percent decrease in expenses.
The WCF also recorded a non-operating change to Net Position amounting to
$34.1 million. The non-operating change is composed of $154.5 million in
unobligated balances transferred in from other appropriations (see Schedule B), $11.4
million in erroneous FY 1996 transfers-in were transferred from the WCF, and $30.0 million
and $6.4 million which were rescinded pursuant to Public Law (P.L.) 105-18, 1997
Emergency Supplemental Appropriations Act and P.L 104-208, Omnibus Consolidated
Appropriations Act of FY 1997, respectively. The remaining $72.6 million of the
non-operating change represents authorized uses of Unobligated Balances Transferred to the
WCF from other DOJ appropriations pursuant to P.L. 102-140.
The WCF Annual Financial Statements received unqualified audit opinions for
FYs 1991 through 1996. The auditors also provided Management Letter Reports (MLR)
containing recommendations for financial management improvements in each of the FYs
audited. All recommendations within the MLRs have been addressed, implemented, or
scheduled for implementation by the Department's management, and the MLRs through
FY 1995 have been closed by the Office of the Inspector General (OIG). The
FY 1996MLR contains one open recommendation involving the implementation of an
automated warehouse inventory system. The inventory system is expected to be fully
implemented during FY 1998, at which time documentation will be forwarded to the OIG for
review and closure.
There are no material weaknesses or material nonconformances reported in the
Department's FY 1997 Federal Managers' Financial Integrity Act report that are directly
associated with the WCF.
Program Performance Information
The WCF legislative mandate directs the fund, with the approval of the OMB, to finance
operations of such administrative services as the Attorney General determines may be
performed more advantageously on a centralized basis. The mission of the WCF is to provide
quality services while achieving economies of scale. The goals of the WCF include customer
satisfaction, cost containment, and continual improvement in service quality and delivery.
The primary customers for these services are those Departmental components responsible for
carrying out the Department's law enforcement mission. Some services, such as automated
legal research and ADP, are also used by other Government agencies. Major objectives of
the WCF can be summarized as follows:
To provide cost-effective common user ADP facilities and services to support critical
Departmental program activities; to be responsive to requests for computer assisted legal
research needs of the Federal legal community; and to develop, implement, and monitor
Departmental policies and programs for office automation and systems development.
To provide contract management support for the acquisition of information technology
services for DOJ components and other government agencies.
To provide quality composition, printing, duplicating, publication, distribution, audio
visual, graphic and photographic services to all elements of the Department in the most
efficient, timely, and cost-effective manner. In addition, to administer Department-wide
policies, procedures and regulations on matters pertaining to audio visual and publication
services.
To maintain and improve the physical plant at the Main Justice Building, to meet
tenants' requests for repairs and alterations on a timely basis, and to continue upgrading
the preventive maintenance program for building equipment.
To maintain an effective and efficient automated and integrated accounting system for
the headquarters and field offices of the OBDs. Also, to develop, maintain and enhance the
DOJ Financial Management Information System (FMIS), which supports the accounting and
financial management requirements of the OBDs, and selected financial operations of the
Bureaus.
To provide personnel/payroll systems support for all Departmental employees, with the
exception of the FBI.
To provide high-quality telecommunications services, including hardware and software for
message preparation, formatting, transmission and reception, for all elements of the
Department, with the exception of the FBI.
To provide for the inventory of new and refurbished office furniture.
To provide a centralized system of accounting and reporting for the Department's GSA
rent charges and to support Departmental administrative officers in budgeting and
controlling the cost of space and related charges.
To provide centralized acquisition of library materials, publications, and subscriptions
for the Department's OBDs.
To provide centralized personnel staffing, position classification, pay administration,
employee-management relations, employee benefits, performance appraisal, time and
attendance, and personnel records maintenance for the Department's OBDs.
To implement the provisions of the Federal Debt Recovery Act of 1986, which authorizes
the Attorney General to contract with private counsel to help the U.S. Attorneys collect
delinquent Federal civil and criminal debts. To maintain the Nationwide Central Intake
Facility which receives, screens, and tracts debt collection cases litigated by both the
U.S. Attorneys and private counsel, and to monitor the private counsel pilot project and
other projects funded by the Department's civil debt collection activities.
The DOJ has aggressively pursued the development and implementation of performance
measures within the Department. The WCF Activity Managers have been tasked with developing
and implementing performance measures for their respective areas of responsibility. The
measures relate directly to the goals, missions, and objectives of the WCF, and will focus
both on inputs and outputs, and related measures of efficiency. Approximately three to
five measures have been identified and developed for each WCF Activity, keeping in mind
the common measures developed by the OMB. Examples of measures implemented to date appear
in the Supplemental Financial and Management Information section of this financial
statement. Reports on the measures are provided annually to WCF management. Trend
information, causes, and comparisons are compiled in an attempt to relate current
performance to past activity and anticipated future performance levels. In June 1993, the
OMB initiated a program for reporting agency progress of Government-wide financial
management goals. In addition, the Government Performance and Results Act of 1993 was
enacted to improve program effectiveness, public accountability, service delivery, and
financial management within the Federal Government. The Department is committed to this
program measurement and reporting effort and is using performance indicators to report its
progress in achieving sound financial management practices. The performance measurement
effort is long-term in nature and will require a significant commitment of the
WCF management.
The profit and loss by WCF Activity is a significant performance measurement. The
performance of each WCF Activity is monitored throughout each year by the JMD Budget
Staff. Although the WCF Activities, as a whole, ended the year with a surplus on
operations, two of the WCF Activities ended the year with a loss on operations. The
$.8 million in losses reported by these two WCF Activities account for
approximately two tenths of one percent of the revenue recorded for FY 1997.
Overhead expenses absorbed by the WCF during FY 1997 were $11.1 million, which
represents a 73.4 percent increase over the $6.4 million reported in
FY 1996. Considering the total WCF operating expenses and the $11.0 million in
authorized uses of WCF Retained Capital, the WCF closed the year with a $21.1 million
surplus overall.
Financial Performance Information
The financial performance of the WCF in FY 1997 continued to meet the goal of
providing quality services at established rates while achieving economies of scale.
Revenue from services provided increased 6.9 percent over the FY 1996 level.
Total entity assets of the WCF increased 21.2 percent in 1997, to approximately
$459.7 million. Much of this increase is attributable to a 21.6 percent increase
in cash (Fund Balance with Treasury), which was due mainly to $21.1 million increase
in FY 1997 WCF retained earnings, and $34.1 million in non-operating changes due
to net unobligated balances transferred in from other appropriations pursuant to
P.L. 102-140. (See Notes 6 and 7). The accounts receivable balance increased
29.9 percent from the close of FY 1996. Please note that Non-Entity Assets,
which represent restricted undisbursed civil and criminal debt collections, along with the
related liability, and have been excluded from this analysis. (See Note 1I and 2).
The FY 1997 WCF entity assets are approximately seven times the FY 1992
level. The net transfers into the WCF of unobligated balances of other DOJ accounts (see
Notes 6 and 7), which amount to $249.5 million in cash, are restricted by
P.L. 102-140 to specific uses and not available to pay general short term
liabilities. Therefore, the transfers are not considered part of current assets. Excluding
the net transfers into the WCF, which account for 64.2 percent of the $388.7 million
increase in WCF assets, the composition of the assets has changed. The proportion of cash
has increased while the level of accounts receivable and equipment has decreased over the
same period.
Total liabilities covered by budgetary resources and net position (equity) have
increased commensurately with the rise in entity assets. Excluding the impact of the cash
transferred in since FY 1993, the five-year growth in net position was
277.9 percent and liabilities covered by budgetary resources are 126.7 percent
higher than in FY 1992. At the close of FY 1997, the mix of liabilities covered
by budgetary resources and net position as a percent of total entity assets has
remained relatively constant when compared to FY 1996 results. The FY 1997
liabilities covered by budgetary resources amount to 41.6 percent, up from
38.1 percent of current assets in FY 1996, while net position has decreased to
58.4 percent of current assets compared to 61.9 percent in FY 1996. WCF
liabilities covered by budgetary resources consist almost entirely of accounts payable to
vendors and personnel compensation liabilities.
The WCF financial performance measures indicate that the WCF current ratio (current
assets to current liabilities covered by budgetary resources) of 2.4 to 1 has remained
relatively constant since FY 1996, and continues to enable the fund to adequately
meet its current liabilities. Approximately 76.7 percent of current assets are in the
form of cash, 23.1 percent are in the form of accounts receivables, and the remaining
.2 percent in inventory. This indicates a strong and liquid current asset position
with enough cash to meet short term debts without reliance on the collection of
receivables. Fixed assets represent 5.4 percent of total unrestricted assets. During
FY 1997, $.8 million was invested in capital equipment which, tempered by
depreciation expense, was responsible for the 12.6 percent decrease in the net book
value of fixed assets since FY 1996.
Along with the generally sound financial position of the WCF, some financial management
and reporting problems continue to exist. The financial reporting of property and
equipment for FY 1997 and FY 1996 relied significantly upon physical inventories
of capital assets and inventory held for sale, which were conducted at the close of each
FY. Although the balances for Inventory and Property, Plant and Equipment, were adjusted
accordingly in these financial statements, the process for systematically updating these
accounts with current transaction data was not accomplished by the end of FY 1997. A
manual adjusting entry was required in both FY 1997 and FY 1996 to reflect the
impact of related transactions. Resource limitations and competing priorities have
hampered the success of resolving these issues.
Limitations of the Financial Statements
The financial statements have been prepared to report the financial position and
results of operations of the WCF, pursuant to the requirements of the 31 U.S.C. 3515(b)
and related laws.
While the statements have been prepared from the books and records of the WCF in
accordance with the formats prescribed by the OMB, the statements are different from the
financial reports used to monitor and control budgetary resources which are prepared from
the same books and records.
The statements should be read with the realization that they are for a component of the
U.S. Government, a sovereign entity. One implication of this is that liabilities cannot be
liquidated without legislation that provides resources to do so.
#####